<html>
<title> - EGYPT: SECURITY, HUMAN RIGHTS, AND REFORM</title>
<body><pre>[House Hearing, 115 Congress]
[From the U.S. Government Publishing Office]



 


               EGYPT: SECURITY, HUMAN RIGHTS, AND REFORM

=======================================================================

                                HEARING

                               BEFORE THE

                            SUBCOMMITTEE ON
                    THE MIDDLE EAST AND NORTH AFRICA

                                 OF THE

                      COMMITTEE ON FOREIGN AFFAIRS
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED FIFTEENTH CONGRESS

                             SECOND SESSION

                               __________

                             JULY 24, 2018

                               __________

                           Serial No. 115-161

                               __________

        Printed for the use of the Committee on Foreign Affairs
        
        
        	[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]


Available: http://www.foreignaffairs.house.gov/, http://docs.house.gov, 

                      or http://www.gpo.gov/fdsys/
                      
                               __________
                               
                      
                      U.S. GOVERNMENT PUBLISHING OFFICE
                      
30-888PDF		     WASHINGTON : 2018

                                 ______
                      
                      COMMITTEE ON FOREIGN AFFAIRS

                 EDWARD R. ROYCE, California, Chairman
CHRISTOPHER H. SMITH, New Jersey     ELIOT L. ENGEL, New York
ILEANA ROS-LEHTINEN, Florida         BRAD SHERMAN, California
DANA ROHRABACHER, California         GREGORY W. MEEKS, New York
STEVE CHABOT, Ohio                   ALBIO SIRES, New Jersey
JOE WILSON, South Carolina           GERALD E. CONNOLLY, Virginia
MICHAEL T. McCAUL, Texas             THEODORE E. DEUTCH, Florida
TED POE, Texas                       KAREN BASS, California
DARRELL E. ISSA, California          WILLIAM R. KEATING, Massachusetts
TOM MARINO, Pennsylvania             DAVID N. CICILLINE, Rhode Island
MO BROOKS, Alabama                   AMI BERA, California
PAUL COOK, California                LOIS FRANKEL, Florida
SCOTT PERRY, Pennsylvania            TULSI GABBARD, Hawaii
RON DeSANTIS, Florida                JOAQUIN CASTRO, Texas
MARK MEADOWS, North Carolina         ROBIN L. KELLY, Illinois
TED S. YOHO, Florida                 BRENDAN F. BOYLE, Pennsylvania
ADAM KINZINGER, Illinois             DINA TITUS, Nevada
LEE M. ZELDIN, New York              NORMA J. TORRES, California
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
F. JAMES SENSENBRENNER, Jr.,         THOMAS R. SUOZZI, New York
    Wisconsin                        ADRIANO ESPAILLAT, New York
ANN WAGNER, Missouri                 TED LIEU, California
BRIAN J. MAST, Florida
FRANCIS ROONEY, Florida
BRIAN K. FITZPATRICK, Pennsylvania
THOMAS A. GARRETT, Jr., Virginia
JOHN R. CURTIS, Utah

     Amy Porter, Chief of Staff      Thomas Sheehy, Staff Director

               Jason Steinbaum, Democratic Staff Director
               
                                 ------                                

            Subcommittee on the Middle East and North Africa

                 ILEANA ROS-LEHTINEN, Florida, Chairman
STEVE CHABOT, Ohio                   THEODORE E. DEUTCH, Florida
DARRELL E. ISSA, California          GERALD E. CONNOLLY, Virginia
RON DeSANTIS, Florida                DAVID N. CICILLINE, Rhode Island
MARK MEADOWS, North Carolina         LOIS FRANKEL, Florida
ADAM KINZINGER, Illinois             BRENDAN F. BOYLE, Pennsylvania
LEE M. ZELDIN, New York              TULSI GABBARD, Hawaii
DANIEL M. DONOVAN, Jr., New York     BRADLEY SCOTT SCHNEIDER, Illinois
ANN WAGNER, Missouri                 THOMAS R. SUOZZI, New York
BRIAN J. MAST, Florida               TED LIEU, California
BRIAN K. FITZPATRICK, Pennsylvania
JOHN R. CURTIS, Utah


                            C O N T E N T S

                              ----------                              
                                                                   Page

                               WITNESSES

Mr. Jared Genser, adjunct professor of law, Georgetown University 
  Law Center.....................................................     8
Mr. Samuel Tadros, senior fellow, Center for Religious Freedom, 
  The Hudson Institute...........................................    17
Michele Dunne, Ph.D., director and senior fellow, Middle East 
  Program, Carnegie Endowment for International Peace............    32
Mr. Andrew Miller, deputy director for policy, Project on Middle 
  East Democracy.................................................    38

          LETTERS, STATEMENTS, ETC., SUBMITTED FOR THE HEARING

Mr. Jared Genser: Prepared statement.............................    12
Mr. Samuel Tadros: Prepared statement............................    19
Michele Dunne, Ph.D.: Prepared statement.........................    34
Mr. Andrew Miller: Prepared statement............................    40

                                APPENDIX

Hearing notice...................................................    60
Hearing minutes..................................................    61
The Honorable Ann Wagner, a Representative in Congress from the 
  State of Missouri: Questions submitted for the record..........    62

 
               EGYPT: SECURITY, HUMAN RIGHTS, AND REFORM

                              ----------                              


                         TUESDAY, JULY 24, 2018

                     House of Representatives,    

           Subcommittee on the Middle East and North Africa,

                     Committee on Foreign Affairs,

                            Washington, DC.

    The committee met, pursuant to notice, at 2:45 p.m., in 
room 2172 Rayburn House Office Building, Hon. Ileana Ros-
Lehtinen (chairman of the subcommittee) presiding.
    Ms. Ros-Lehtinen. The subcommittee will come to order. So 
sorry about our delay due to votes.
    After recognizing myself and Ranking Member Deutch for our 
opening statements, I will recognize other members seeking 
recognition for 1 minute. We will then hear from our witnesses.
    Without objection, the witnesses' prepared statements will 
be made a part of the record and members may have 5 days to 
insert statements and questions for the record, subject to the 
length limitation in the rules.
    I am going to recognize Mr. Cicilline in a minute and I 
also would like to note that Mr. Genser will only be able to 
stay with us until 3:30 or so. He needs to catch a plane to 
West Africa to see--for a meeting and because of the beautiful 
weather that we are having--where are you--there you are--he 
had to rearrange his flight.
    So we will do our best to get him out of here on time and 
on that--on the plane.
    And thank you--who do we have as our special guest? Mr. 
French--Mr. Hill, welcome to the committee. Who do you have 
with you there?
    Just you, because your interest that you've spoken to me 
about on your bill on the Christians--Coptic Christians. So 
thank you, Mr. French Hill.
    Welcome to our committee and thank you for your efforts in 
support of Egypt's Coptic population, and as I will say in my 
opening remarks, I am proud to be a co-sponsor of your 
resolution supporting better treatment and increased protection 
for the Coptics and I thank you for being with us today, and we 
will recognize you.
    So let me first turn, if I could, Mr. Deutch, to Mr. 
Cicilline, who has to get to another place and but has an 
adopted journalist.
    Mr. Cicilline. Yes.
    Ms. Ros-Lehtinen. Thank you, Mr. Cicilline.
    Mr. Cicilline. Thank you, Madam Chairwoman, and thank you, 
Ranking Member Deutch, for affording me this courtesy.
    Thank you for convening this hearing on security, human 
rights, and reforming Egypt. Egypt consistently ranks as one of 
the worst countries for freedom of the press.
    Under--ushering counterterrorism laws, President Sisi has 
censored the press and journalists are routinely harassed, 
arrested, and imprisoned without trial.
    This hearing is timely, as this Saturday, a court in Egypt 
will be deciding whether to execute over 700 individuals who 
were arrested during the violent dispersal of a protest in 
2013.
    One of these individuals is photojournalist Mohammed Abu 
Zeid, who is professionally known as Shawkan. I was made aware 
of Shawkan's case through the Lantos Commission's Defending 
Freedoms Project and I am so outraged by the conditions 
surrounding his arrest and detention that I decided to advocate 
on his behalf. Shawkan is an Egyptian freelance photojournalist 
whose work has been published in international publications 
including the New York Times.
    On August 14th, 2013, while photographing the events 
occurring in Rabaa Square, he was taken into custody along with 
two other journalists.
    The other journalists, however, were foreign nationals and 
were released within 2 hours, while Shawkan, only 25 at the 
time, has been abused, beaten, and denied his freedom, due 
process, and adequate medical treatment ever since simply 
because he was doing his job.
    In 2016, the U.N. Human Rights Council Working Group on 
Arbitrary Detention issued a report on his case. It regarded 
his detention as arbitrary and recommended that he be released 
immediately.
    I sent a letter to President Sisi of Egypt today, urging 
him to support the immediate release of Shawkan or, at the very 
least, to support an individual trial so that evidence specific 
to his case can be heard and contested.
    To paraphrase Shawkan, photography is his passion, but he 
should not have to pay for his passion with his life.
    Thank you for convening this hearing and to our witnesses 
for taking the time to share their knowledge on these very 
consequential issues and I really thank the chairman for giving 
me an opportunity to make those comments, and I yield back.
    Ms. Ros-Lehtinen. Of course. Thank you very much, Mr. 
Cicilline.
    The Chair now recognizes herself for 5 minutes
    U.S. policy toward Egypt is an issue many of us on this 
subcommittee and, indeed, many of us generally in Congress have 
debated over the past few years but especially since the 
revolution of 2011.
    I think many of us recognize the strategic importance of 
Egypt and the role that it plays in the greater Middle East, 
and we can all understand the challenges that Egypt has faced 
since 2011, particularly in respect to security--both national 
security and economic security.
    President Sisi has had a very difficult task in 
implementing some IMF-mandated reforms. We have seen some 
positive signs as he makes progress, particularly with 
reductions in food and fuel subsidies.
    There are signs that economic growth is on pace for its 
highest since 2008 and Egypt may even have a budget surplus 
this year. Egypt has begun to commercialize its natural gas 
resources.
    Yet, as positive as all those signs are, there is still 
many questions as to whether the reforms or the level of growth 
are enough. Egypt is the Middle East's largest country with a 
rapidly expanding population.
    The struggles to keep the economy driving while also facing 
a growing terror threat from ISIS in the Sinai and the Muslim 
Brotherhood are daunting.
    But for many of us, while we appreciate the difficult 
position this puts President Sisi in, we worry that the human 
rights of Egyptians are being curtailed and that the 
government's repressive behavior will undermine Egypt's long-
term stability.
    As such good friends, it is important for the United States 
to let our partners in Egypt know that we are there to support 
its counterterrorism efforts, but our ideals, our values, our 
interests will not countenance the erosion of human rights in 
the name of the fight against terror.
    After all, the United States has been one of Egypt's 
largest supporters over the years in terms of economic 
assistance--in terms of military assistance.
    In just the past 5 years, the U.S. has provided over $7 
billion in bilateral aid to Egypt, and Egypt has been key to 
holding the line against the Islamic State's Sinai province 
affiliate, a U.S.-designated foreign terrorist organization.
    But at what cost? President Sisi launched an offensive 
earlier this year named Operation Sinai 2018. I am supportive 
of the objective but I am concerned about the effectiveness of 
the military's tactics and the lack of transparency in its 
efforts against ISIS.
    I am concerned over allegations that Egypt has used counter 
terror operations as a means to crack down on its opposition.
    The state of emergency laws have been extended and we have 
heard reports of the rights of journalists, as Mr. Cicilline 
just pointed out, activists, and critics of the Sisi 
government--their rights have been curtailed.
    One of the most important roles that Congress has is that 
of oversight--oversight over the administration's policies but 
also oversight over how the American taxpayer dollars are being 
spent.
    So, naturally, we want to be cautious. We want to ensure 
that our assistance is promoting our values and our ideals and 
long-term stability.
    We should continue to support Egypt's legitimate operations 
against the terror groups. But this is by no means a green 
light to take whatever action the government wants.
    There must be protections for the citizens of Egypt and 
their human rights must be respected. I hope that Egypt, while 
implementing its economic reforms, will also assess making 
additional reforms to guarantee the human rights of all of its 
citizens. That includes revoking the controversial NGO law that 
President Sisi enacted last year, which is making it difficult 
for civil society to operate and to promote democratic ideals 
and democracy programs.
    It also means ensuring that the rights of ethnic and 
religious minorities like the Coptic Christians, which Mr. 
French Hill is very concerned about, are protected and 
guaranteed.
    I have joined Mr. Hill in introducing House Resolution 673 
expressing concern about the attacks against Coptic Christians 
in Egypt and it's my sincere hope that Egypt protects all of 
its citizens.
    I also want to raise the issue of the 20 or so U.S. 
citizens and legal permanent residents who are currently being 
detained in Egypt, possibly under dubious causes.
    I urge Egyptian officials to ensure their rights, their 
safety, and their wellbeing are being taken care of and that 
their rights are not being violated.
    In addition to finding a fair and immediate resolution to 
those cases, I am hopeful for a resolution in the ongoing case 
against the 43 NGO workers, an issue I've personally been 
engaged in from day one, and I know it's an issue that many of 
our colleagues are eager to see resolved.
    I thank the Egyptian government for working with our State 
Department officials to try to find a way forward. It is my 
understanding that we continue to work toward that and to 
resolve it.
    But I encourage the Egyptians to resolve this as soon as 
possible. I encourage the Egyptian government to continue to 
work with Congress. We can find a way to build this 
relationship for the betterment of both of our countries. But 
we have to find a way to do it in a manner that both secures 
the country and secures the human rights of all of Egypt's 
citizens.
    And with that, I am pleased to turn to Mr. Deutch, our 
ranking member.
    Mr. Deutch. Thank you, Madam Chair, for calling this 
hearing. I also want to extend my gratitude to this really 
terrific panel of experts.
    Egypt is an important ally for the United States and has 
been for decades. It is a leader in the Arab world and has been 
a strong counter terrorism partner to both the United States 
and Israel.
    I value the relationship that we share with Egyptians. But 
I must express my sincere concern about some of the activities 
and trajectory of the Egyptian government.
    The state of democratic governance and human rights in 
Egypt has continued to challenge me. We have watched as civil 
society and NGOs, including Americans and dissenting voices, 
are prosecuted and even unlawfully imprisoned.
    There continue to be reports of torture and other 
concerning human rights offenses in the country and the 
crackdown on journalists and the free press is shocking.
    Arrests of journalists and increased efforts to control the 
media and Egyptians' access to social media are an affront to 
democracy and stand in stark contrast to the democratic change 
the Tahrir Square revolution called for.
    Many of Sisi's actions appear to me as steps toward an 
authoritative strongman-led government. The Egyptians have 
striven and fought for democracy and a return--and deserve a 
move toward freedom and democracy, not a return to 
totalitarianism.
    Sisi's recent reelection is further fodder for worry about 
Egypt's prospects for a thriving democracy. The election was, 
by all accounts, theatrics, as potential challengers were 
intimidated and oppressed.
    There were mass arrests and dissenting voices in the media 
limited to only those at issue with the state's official 
message.
    Women continue to face daily obstacles. Cairo has been 
listed among the most dangerous large cities for women. 
Assaults, harassment, verbal abuse, and fear are commonplace 
for Egyptian women.
    And while we have observed some progress, like Egypt 
banning the practice of female genital mutilation, girls 
continue to be cut in secret.
    Furthermore, Egypt's discrimination against the LGBTQ 
community, often arrested under claims of membership in groups 
aiming to overthrow the government is, again, a key concern for 
Egypt's overall trajectory.
    We have seen some indication Egypt's economy is making 
gradual improvements but the country continues to lag behind in 
extending economic growth to rural and impoverished regions.
    Economic reform and improved economic opportunity will be 
key to Egypt's future. In the realm of terrorism, Egypt has 
been a dedicated fighting force against ISIS cells throughout 
the country, particularly in the Sinai.
    ISIS is still a global terror group and its loss of 
territory in Iraq and Syria does not mean that the group has 
been defeated. Egypt's dedication to fighting this dangerous 
terrorist group reflects common ground with the United States 
and we are most grateful for that.
    With that in mind, we, as Congress, must still emphasize 
the need for human rights while embarking upon a comprehensive 
coordinated counterterrorism counter insurgency strategy.
    The press needs to be free to report factual news and Egypt 
cannot implement domestic political policies under the guise of 
security.
    I've said this at every hearing that we have had on Egypt 
since the revolutions that took down Mubarak. It doesn't matter 
who sits in the government--our message and respect for human 
rights must remain the same.
    While the United States desperately wants to see Egypt's 
security and economy sectors be strengthened and bolstered, we 
cannot ignore the suffering of people and the challenge to 
democracy just to focus on economic and security assistance.
    I want to see a stable Egypt--one that continues decades of 
partnership with the United States. But there must be security 
and human rights improvements as well.
    Human rights are vital to the growth of a healthy democracy 
and these issues cannot be put on the back burner under the 
guise of focusing first on the economy or other factors.
    I look forward to the conversation today and I again want 
to thank all of our witnesses for being here and I yield back 
the balance of my time. Thanks.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Deutch.
    Now we will turn to members for their statements. Mr. 
Donovan, Ambassador Wagner, and Mr. Hill.
    Mr. Donovan. Thank you, Madam Chairman, and thank you, 
Ranking Member Deutch, for conducting this important hearing 
today on Egypt security, human rights, and reform.
    In the past, the United States and Egypt have enjoyed a 
friendship and partnership. But Egypt's drift toward China, 
Russia, and, most especially, North Korea raises grave 
concerns.
    As we all know, 2 years ago, U.S. intelligence tracked a 
North Korean ship that was headed toward Egypt. U.S. officials 
warned Egyptian officials and an Egyptian naval vessel ordered 
the crew to halt for an inspection.
    In addition to the cargo listed on the ship's manifest, 
there were also over 2,400 North Korean rocket-propelled 
grenades and completed components for 6,000 more.
    As the United Nations report concluded, this was the 
``largest seizure of ammunition in the history of sanctions 
against the Democratic People's Republic of Korea.''
    The evidence against Egypt was clear. For example, each 
crate had been stenciled with the name of an Egyptian company. 
Many of the rounds were practice rounds, demonstrating that 
they were intended for training for a sizeable army.
    There is no doubt the shipment of North Korean weapons was 
intended for the Egyptian military. While the United States has 
cited this incident as a reason for delaying $300 million in 
aid, I am looking forward to hearing what more we could do to 
dissuade the Egyptians from violating international law and 
partnering with North Korea.
    We are happy to work with Egypt and honor our historic 
relationship. But Egypt must do its part as well.
    And with that, Madam Chairwoman, I waive the remainder of 
my time.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Donovan.
    Ambassador Wagner.
    Mrs. Wagner. Thank you, Madam Chair, for hosting this 
hearing, and thanks to our witnesses for your expertise.
    Egypt has been a valuable partner in managing Israeli-
Palestinian tensions, countering terrorism, and supporting U.S. 
military operations in the region. But, despite receiving 
significant support from the United States, Egypt remains a 
problematic partner due to its serious human rights abuses, 
especially persecution faced by Coptic Christians.
    Egypt's historical importance to our regional policy goals 
shouldn't give it a free pass. Our close relationship means we 
have an opportunity to help Egypt achieve real progress in 
safeguarding human rights and advancing democratic reforms. 
United States must continue to hold Egypt to a high standard.
    I thank you, Madam Chair, and I yield back.
    Ms. Ros-Lehtinen. Thank you, Madam Ambassador.
    Mr. Issa of California.
    Mr. Issa. Thank you, Madam Chair. And on a slightly 
different note, unequivocally, we need Egypt as much or more 
than Egypt needs us.
    Our relationship with Egypt has been strained, but it was 
strained in no small part because the Obama administration 
allowed the Muslim Brotherhood to take over, run the country, 
persecute Christians in a way that no Coptic Christian I know 
had ever seen.
    Since the takeover of the new regime, we have shown 
indifference to them. We have gone out of our way to withhold 
funds, so much so that they have in fact--and I regret that 
they have made this decision--I think it's a bad decision--
looked elsewhere at times for military weapons.
    The bottom line is the only safe border that Egypt has is 
the one with Israel, and even that border takes divisions to 
guard against operatives ISIS in the Sinai.
    So I will say to my colleagues, yes, I would like to see 
better human rights. But ask a Coptic Christian which they'd 
rather have--the last regime that my previous President 
endorsed, or the regime today that's fighting ISIS and other 
enemies on all its borders while defending Israel's border so 
that it need not worry nearly the way it had in the past.
    And I yield back.
    Ms. Ros-Lehtinen. Thank you, Mr. Issa, and to talk about 
the Coptic Christians, Mr. Hill is recognized. Welcome to our 
subcommittee.
    Mr. Hill. Thank you, my friend from Florida, the 
chairwoman, and the ranking member for the opportunity to speak 
today.
    I am proud to be a sponsor of House Resolution 673, which 
expresses concerns over a tax on Coptic Christians in Egypt.
    While I give full credit to President el-Sisi for his work 
to promote religious tolerance and support for Egyptian Copts, 
I believe there is much more than can be done to ensure that 
the President's message trickles down and is implemented by his 
government's educational, cultural, and provincial officials.
    On the heels of the recent Department of State report, I'll 
look forward to hearing today from witnesses on the ways that 
Egypt can improve in this area.
    I thank the chairwoman and Mr. Cicilline for their 
friendship and their work and original co-sponsor on this 
resolution and I thank the five other members of this 
subcommittee and 14 members of the full committee to co-sponsor 
this message of appreciation for efforts made and call for 
continued progress.
    And with that, Madam Chair, I thank you and I yield back.
    Ms. Ros-Lehtinen. Thank you so much, Mr. Hill.
    And now I would like to introduce and recognize to speak 
first Mr. Jared Genser--I hope that you make your flight--
managing director of the Perseus Strategies and adjunct 
professor of law at Georgetown University Law Center.
    Mr. Genser is known for his work freeing political 
prisoners and is a recipient of the American Bar Association's 
international human rights award. Thank you for being here 
today and we will recognize you, first off.

   STATEMENT OF MR. JARED GENSER, ADJUNCT PROFESSOR OF LAW, 
                GEORGETOWN UNIVERSITY LAW CENTER

    Mr. Genser. Thank you, Madam Chairwoman, Ranking Member 
Deutch, and distinguished members of the committee.
    It's great to be with you all this afternoon. First, I'll 
discuss my prospective on the situation of human rights in 
Egypt.
    Second, I'll talk about some of the important issues 
between Egypt and the United States and the bilateral 
relationship and then, lastly, I'll provide my recommendations 
about how I believe the U.S. should use its leverage from our 
annual appropriations to Egypt to secure important reforms.
    For the sake of time, let me just summarize first that the 
situation of human rights in Egypt, which I have expounded more 
upon in my written testimony, because the situation I think is 
well known to all of you, under President Sisi crackdowns on 
freedom of speech, expression, assembly, and religion are 
commonplace, today there are tens of thousands of political 
prisoners.
    Police forces employ arbitrary arrests, extrajudicial 
execution, and enforced disappearances to punish dissent, not 
only political opponents--lawyers, NGO workers--but also 
journalists and bloggers as well.
    Travel bans and asset freezes are deployed against human 
rights defenders and national security officers routinely 
torture political detainees with techniques that include 
beatings, electric shocks, stress positions, and sometimes even 
rape.
    And, of course, we have already heard mentioned from all of 
you this afternoon the situation of the Coptic Christian 
community, which continues to face serious repression and 
persecution as well as the GLBT community in Egypt as well.
    While the Egyptian people have faced the brunt of the 
abuses under Sisi's authoritarian rule, there are three 
especially important human rights concerns directly connected 
to the United States Sisi has inexplicably allowed to fester, 
despite the U.S. having provided more than $76 billion of 
foreign assistance since 1948 and $1.3 billion annually in 
military assistance alone in recent years.
    First, some 5 years after the felony convictions of the 43 
Egyptian and foreign NGO workers, 17 of whom are Americans, the 
affair has remained an unfortunate irritant in U.S.-Egypt 
relations.
    It appears Cairo and Washington are close to a resolution 
of the case and I can only hope for all those impacted that we 
see a fair and expedient resolution.
    I know both the U.S. and Egypt have remained actively 
engaged in discussion this issue and I believe if it were to 
get a fair resolution, it could be an important measure that 
shows Egypt's willingness to improve our bilateral relations 
and in a small part its human rights record, although I would 
note, of course, that the NGO law that President Sisi promised 
not to sign after visiting the Congress and with the President 
here in Washington, he did in fact sign and despite promises 
now that it's not going to be enforced, in fact, we have 
already seen enforcement well underway, as I know some of the 
other panelists will discuss.
    Second, the government of Egypt continues to wrongly 
imprison close to 20 American citizens and legal permanent 
residents.
    This includes Mustafa Kassem, an American auto parts dealer 
caught up in the crackdown in Rabaa Square, and it includes two 
clients of mine, Ola al-Qaradawi and Hossam Khalif, a married 
couple who were approved for green cards during the Trump 
administration and have eight American citizen family members.
    In the last month, the U.N. High Commissioner for Human 
Rights called for Ola and Hossam's immediate release and the 
U.N. Working Group on Arbitrary Detention found that they were 
being held arbitrarily and in violation of international law.
    Both have been held incommunicado in terrible conditions 
and without regular access to counsel or any access to family 
for more than a year.
    Ola is the longest held female political prisoner in 
solitary confinement by the Egyptian regime and she's been on a 
hunger strike, demanding her most basic human rights and her 
immediate release.
    And while the Trump administration did secure the release 
of two Americans--Aya Hijazi and Ahmed Etiwy--more hostages 
have been taken by this purported ally of the United States.
    Finally, there is the case of April Corley, a U.S. citizen 
who's also a client of mine and who was seriously injured in 
Egypt's Western Desert in an attack by the Egyptian military 
using a U.S.-funded and supplied Boeing AH-64 Apache helicopter 
in September 2015.
    April is now permanently disabled, unable to work, and in 
constant pain. Yet, while the government of Egypt has expressed 
its remorse, it has offered less money as a settlement in the 
cost of the medivac out of Egypt, which she had to pay for 
herself.
    Sisi has so far rightly concluded that U.S. military 
assistance comes with a license to kill or injure Americans 
with total impunity.
    Because he actually has the full protection of our legal 
system to do so, April in fact cannot even sue Egypt for her 
injuries because of the Foreign Sovereignty Immunities Act, 
and, inexplicably, neither President Trump nor President Obama 
nor the U.S. Congress has imposed any consequence on Egypt for 
refusing to fairly resolve April's case or secure a final 
resolution of the case, despite the fact that it was U.S.-
funded equipment that she, as a taxpayer, paid for that led to 
her plight.
    Lastly, let me talk about my recommendations about how to 
improve Egypt's human rights record. As a human rights lawyer, 
I am often asked to comment on the most effective ways to 
improve the compliance of governments with their binding 
obligations under human rights treaties to which they are a 
party.
    That is, indeed, generally, an enormous challenge. But in 
the case of the bilateral relationship between the United 
States and Egypt, our government has enormous leverage.
    Contrary to the view of the government of Egypt, which sees 
our foreign assistance as an entitlement and not as a 
privilege, the United States has no legal obligation to provide 
assistance to Egypt.
    While it is in our regional strategic interest to support 
Egypt in its fight against Islamic extremism and terrorism, 
today it is a less important and less effective ally as it is 
both at times aligned itself with Russia and North Korea and 
its own capabilities to support our objectives have been 
degraded from within.
    It is equally a major error in judgement for the United 
states to ignore the way that Sisi is governing, which works 
directly in contravention of that goal.
    Indeed, our country knows from experience that 
radicalization occurs in environments in which an authoritarian 
ruler suppresses the population's democratic aspirations for 
self-governance, seriously represses its rights, and poorly 
manages an economy that has a lack of good-paying jobs, 
especially for young people.
    All of these elements exist in Sisi's Egypt today. Surely, 
Egypt can find a way to address this legitimate security 
concerns while ensuring both the rule of law and human rights 
are respected.
    Indeed, this is in the interests of both the U.S. and 
Egypt, as its stability and leadership is important for a 
secure and stable Middle East.
    Yet, right now, unfortunately, it's business as usual here 
in Washington, with Egypt's aid flowing, basically unimpeded.
    This not only sends the wrong message to Cairo but it puts 
our regional strategic interests at greater risk in both the 
medium and longer term.
    The smartest way forward for the United States is for 
President Trump and Secretary Pompeo as well as the U.S. 
Congress to send a clear and consistent message to Sisi that 
while the United States views Egypt as an important ally, the 
American people expect our allies to act in certain ways.
    First, the United States must say that Egypt's actions 
targeting American citizens and legal permanent residents must 
stop.
    For President Trump, who has spoken of America first, this 
motto is empty rhetoric if he tolerates any of this behavior by 
the Sisi government.
    The President should tell Sisi privately, as a start, that 
if he doesn't permanently resolve the NGO cases, pardon the 
wrongly imprisoned Americans in LPRs and pay appropriate 
compensation to April Corley, all three of which Sisi can do 
today within his powers as President.
    Then President Trump will have no choice but to make 
serious cuts in Egypt's aid. It is particularly worrying that 
the administration way waive the human rights conditions on and 
release the $195 million in fiscal year 2017 funds that have 
been held back, which will undoubtedly be taken by Sisi as a 
clean bill of health on human rights.
    Second, the U.S. Congress needs to speak in one voice about 
the path that's easiest taken as being unacceptable. While the 
fiscal year 2019 foreign operations appropriations bill in the 
Senate imposes human rights conditions on 30 percent of Egypt's 
proposed $1 billion in reduced military assistance, the House 
bill maintains $1.3 billion in military assistance and imposes 
no conditions of any kind.
    As authorizers, you have the ability to advocate with your 
colleagues and, ultimately, help ensure that the final bill 
that will come out from the conference committee and will go to 
the floor of the House and the Senate imposes the human rights 
conditions from the Senate version of the bill.
    If those human rights conditions are dropped, the message 
sent to Sisi would be unmistakable--that the United States will 
ignore his abuse of numerous Americans, his evisceration of 
Egypt's democracy, and the egregious abuses that he's imposed 
on his own population, all in the name of a so-called greater 
good.
    Finally, we need transparency and visibility here in 
Washington, not only about the U.S.-Egypt relationship but the 
way in which the Sisi government treats its own people.
    This hearing is an important start. Nonetheless, I can't 
remember the last time I saw any administration official from 
the Trump administration or Obama administration before it 
actually testify before the U.S. Congress about the realities 
of the U.S.-Egypt relationship, and it is important for the 
Congress to hear directly from victims of the Sisi government, 
both American and Egyptian.
    Thank you for the opportunity to testify before you today 
and I am happy to also answer any questions.
    [The prepared statement of Mr. Genser follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Genser. We 
appreciate you being here and thank you to our panelists for 
extending that courtesy to him.
    We are delighted to welcome back Mr. Samuel Tadros, senior 
fellow at the Hudson Institute Center for Religious Freedom. 
Mr. Tadros is also a professional lecturer at Johns Hopkins 
University School of Advanced International Studies and a 
distinguished visiting fellow of Middle Eastern Studies at 
Hoover Institution.
    Thank you for being here again. I still can't say your name 
right. We look forward to your testimony.
    And next, we are delighted to welcome Dr. Michelle Dunne, 
director and senior fellow of the Middle East Program at the 
Carnegie Endowment for International Peace.
    Prior to this post, Dr. Dunne served in the U.S. missions 
in Cairo and Jerusalem as well as at the National Security 
Council. Thank you for your service. We look forward to your 
testimony, Doctor.
    And, finally, we are delighted to welcome Mr. Andrew 
Miller, deputy director for policy at the Project on the Middle 
East and Democracy and a nonresident scholar at the Carnegie 
Endowment for International Peace.
    Previously, Mr. Miller served at the U.S. Department of 
State and the National Security Council. Thank you for your 
service.
    We welcome your testimony as well, and we will begin with 
you, Sam.

   STATEMENT OF MR. SAMUEL TADROS, SENIOR FELLOW, CENTER FOR 
            RELIGIOUS FREEDOM, THE HUDSON INSTITUTE

    Mr. Tadros. Thank you, Madam Chair, Ranking Member Dutch, 
distinguished members of the subcommittee. Thank you for 
holding this hearing and for inviting me to testify today.
    I have submitted the written testament with the detailed 
description of the challenges facing Egypt and recommendations 
for U.S. policy.
    But let me devote those few minutes to discussing the 
Egypt-American relationship in general.
    For the previous four decades, the U.S.-Egypt alliance has 
been a cornerstone of the American order in the Middle East. 
After two decades of tensions and conflict between both 
countries, Secretary Kissinger and President Sadat forged a new 
basis for the American-Egyptian relationship, helping attain 
key U.S. objectives during the Cold War.
    In return for U.S. aid to Egypt, successive administrations 
hoped that the country that led the region to war and 
destruction would now lead it to peace and cooperation.
    Despite this, the relationship between the two countries 
has never been a smooth one. Egypt was always a problematic 
ally. From Egypt's conduct during the Achille Lauro affair and 
attempt to smuggle missile components under President Reagan, 
from its attempt to stop economic cooperation between Arab 
countries and Israel and its pressure on Nasser Arafat not to 
give any concessions during the Camp David Summit under 
President Clinton to the Mubarak Regime's refusal to reform 
under President Bush's tenure, throughout those three decades 
there were deep U.S.-Egyptian disagreements over a variety of 
issues ranging from the peace process, U.S. policies in the 
region, democracy, and human rights.
    Moreover, despite continued U.S. economic and military 
assistance to Egypt, the Egyptian press allowed to buy the 
government control by the government, continued to traffic in 
anti-American and anti-Semitic arguments.
    And yet, these previous disagreements and frustrations pale 
in comparison with attention, disappointment, and mistrust that 
has shaped the previous decade in U.S.-Egyptian relations.
    Policies followed by the Obama administration perceived in 
Egypt as one that's in support of the Muslim Brotherhood, the 
condemnation of the military coup, and threats to cut U.S. 
military aid to the country have led to growing antagonism in 
Cairo.
    In turn, Egypt has shown an unwillingness to cooperate on 
regional security challenges such as joining the fight against 
Islamic State in Iraq and Syria, pursue them in dependent 
policy in Libya, deepen its military and economic ties to the 
Russian Federation, or pursue a scorched earth strategy to wipe 
out the Islamic State's affiliate in Sinai, crack down on all 
forms of dissent in the country, stifling civil society and any 
independent media, engaged in appalling human rights abuses, 
continued to attempt to undercut U.S. resolutions in the United 
Nations, and most importantly, engaged in an unprecedented wave 
of anti-American propaganda and conspiracy theories at home.
    The American-Egyptian alliance is crumbling. For some in 
Washington, while unfortunate, and end to the alliance is 
inevitable.
    Cold War rationale should no longer be the basis of a 
continued alliance with a problematic partner and the two 
countries do not see eye to eye on many important issues.
    Moreover, Egypt's regional importance has vastly 
diminished. Egypt has continued to decline on all levels--
economically, culturally, and politically.
    It is no longer today the key player in the Middle East 
that it was in the past. As an external power, Egypt is a 
shadow of its former self and there are well-founded doubts 
about its capacity to play a leading and constructive role, 
even if it wanted to.
    Instead, Egypt itself has increasingly become a locus of 
the region's unfolding strategic competition, an unprecedented 
political and ideological crisis of the state-based order.
    The regional decline is a reflection of deeper ills within 
Egypt itself. The inability of the country's leadership to 
reform the economy through market-oriented policies, combatting 
corruption, and addressing the dysfunctional bureaucracy has 
worsened the lives of millions of Egyptians.
    But continue with all the failures of the government, I 
hope that the U.S. is able to develop a coherent strategy to 
deal with these challenges.
    Thank you.
    [The prepared statement of Mr. Tadros follows:]
    
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you so much, Mr. Tadros. Did I get 
it? All right.
    Dr. Dunne. Nate corrected me.

STATEMENT OF MICHELE DUNNE, PH.D., DIRECTOR AND SENIOR FELLOW, 
MIDDLE EAST PROGRAM, CARNEGIE ENDOWMENT FOR INTERNATIONAL PEACE

    Ms. Dunne. Chairman Ros Lehtinen, Ranking Member Deutch, 
and members of the subcommittee, thank you for inviting me to 
testify.
    I am going to focus in my brief remarks here on 
developments in Egypt's political scene that have implications 
for the country's stability as well as for U.S. interests.
    With your permission, I've submitted a slightly longer 
written statement.
    Ms. Ros-Lehtinen. Without objection.
    Ms. Dunne. During the first half of 2018, President Abdel 
Fattah el-Sisi eliminated five Presidential challengers, four 
of them senior and well-known figures, through arrest or 
intimidation.
    Sisi was then reelected after running against a virtual 
unknown. One of the would-be candidates, former army chief of 
staff Sami Anan, suffered a stroke in prison and is now in 
critical condition.
    There has been also a recent wave of arrests of those who 
have criticized Sisi publicly. Again, some of these are quite 
well-known people.
    Abdel Moneim Aboul Fotouh, the founder of the Strong Egypt 
Party, himself a previous Presidential candidate, blogger Wael 
Abbas, youth activist Shady al-Ghazaly Harb, human rights 
defender Amal Fathy, as well as others.
    They've joined tens of thousands of other political 
prisoners who have been detained for months, in some cases 
years, and often in harsh conditions, including prolonged 
solitary confinement and denial of adequate medical care in 
addition to the even harsher measures that Mr. Genser 
discussed--torture and so forth.
    So why all these arrests now? Well, they come amid signs 
that President Sisi might try to stay in office beyond the end 
of his second term. The 2014 Egyptian constitution, which was 
written after the 2013 military coup but before Sisi became 
President, stipulated that the President is limited to two 4-
year terms and, of course, the writers of the constitution 
wrote that because President Mubarak stayed in office for 30 
years.
    During his first term, Sisi promised that he would leave 
office after 8 years. But he has not repeated that pledge 
either during his reelection campaign or since, beginning his 
second term.
    His supporters are now saying that 8 years are not enough 
and it's widely reported that amendments to the constitution 
will be introduced into the Parliament to remove term limits 
and perhaps extend the Presidential term from four to 6 years 
as well as make other changes to strengthen Presidential 
powers.
    President Sisi has also taken steps that appear designed to 
ensure the loyalty of senior military officers to him 
personally. He has recently replaced the ministers of defense 
and interior, the head of general intelligence, the army chief 
of staff, and the Parliament recently passed a law that would 
grant designated security officers lifelong immunity for crimes 
committed following the 2013 coup--for example, the mass 
killings at Rabaa and other acts of violence.
    This law gives the President the right to designate which 
senior officers would enjoy such immunity and thus will be a 
highly effective tool in the hands of President Sisi to ensure 
loyalty to him.
    Now, why should the United States care if Sisi paves the 
way to remain President for life? First of all, if he succeeds, 
at best the lack of new blood in political leadership would 
bring back the stagnation, corruption, and lack of 
responsiveness to citizens, lack of accountability that led to 
the revolt against Mubarak but with much more brutal repression 
in the case of the Sisi regime.
    That's a recipe for trouble in this nation of 100 million 
people and neighbor to Israel. And if Sisi tries to secure a 
lock on the presidency and he fails but there are no credible 
political processes to sort things out, then the country might 
well be headed for violent unrest before too long.
    While the United States cannot and should not try to micro 
manage Egypt's politics, the U.S. Government and particularly 
the Congress can scrutinize engagement with Egypt and aid to 
Egypt to be sure that the United States is promoting stability 
for the entire nation rather than repression and one-man rule.
    My specific recommendations include keep conditions on 
security assistance. They're working. The U.S. administration 
has become bolder in using the human rights conditions that 
Congress has written into legislation and has withheld 
assistance.
    Based on some of the concerns that Mr. Genser articulated--
the conviction of NGO workers in 2013, the draconian new NGO 
law that would crush civil society, and Egypt's dealing with 
North Korea.
    These problems have not yet been resolved. There are signs, 
though, of greater responsiveness on the part of the Egyptian 
government since the suspension of aid.
    So keep writing those conditions into legislation and 
encourage the administration to use them, which, of course, 
means not releasing aid until the benchmarks are met.
    I would recommend a bottom-up review of security assistance 
to be right sized to make sure that it meets Egypt's actual 
defense needs rather than the military's desire for impressive 
weapons systems.
    Insist on vigorous implementation of end use monitoring to 
ensure that equipment provided is not used for human rights 
abuses because, as we've already heard, it has been.
    Consider shifting some assistance from security to address 
some of the urgent needs of the population such as 
modernization of the country's water infrastructure. It is 
headed for a water crisis.
    Ultimately, it's for Egyptian citizens to decide the future 
they want for their country. But it's for American citizens and 
their representatives to decide how much faith we have in that 
vision and to what extent we are willing to support it.
    Thank you very much.
    [The prepared statement of Ms. Dunne follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Thank you, Dr. Dunne, very much.
    Mr. Miller.

  STATEMENT OF MR. ANDREW MILLER, DEPUTY DIRECTOR FOR POLICY, 
                PROJECT ON MIDDLE EAST DEMOCRACY

    Mr. Miller. Chairman Ros-Lehtinen, Ranking Member Deutch, 
distinguished members of the subcommittee, thank you for 
inviting me to testify.
    With your permission, I will summarize my written 
testimony, which I've submitted for the record. I will describe 
three defining and concerning characteristics of Egypt under 
President Abdel Fattah el-Sisi.
    Then I will offer two recommendations regarding security 
assistance that can help advance U.S. interests while right 
sizing the bilateral relationship.
    The first key characteristic of Egypt today is that the 
country is no longer as important to U.S. interests as it once 
was. Due both to its own internal decline and the growing 
influence of wealthy Gulf states, Egypt has ceased to be a 
regional power.
    Egypt still matters to the U.S. but more because we cannot 
afford the Arab world's most populous country becoming a basket 
case that generates refugee flows or terrorist threats abroad.
    A second characteristic is how poorly Sisi's military-
backed government is managing these problems. Dr. Dunne already 
addressed the dangers of Sisi's attempt to create a total 
autocracy in Egypt.
    In the security arena too, Sisi has been unable to defeat 
ISIS Sinai and other terrorist groups. In fact, 2017 saw the 
most fatalities from terrorist attacks in modern Egyptian 
history--756--while the mass incarceration of peaceful citizens 
is worsening the radicalization problem.
    On the economic front, Sisi has made some important fiscal 
reforms, but his policies have led to deteriorating living 
standards threatening the country's stability.
    Third, Egypt is a very difficult partner for the United 
States. Despite the $1.3 billion in FMF funds we provide each 
year, Sisi has continued to cooperate with North Korea and 
imprisoned U.S. citizens on trumped up charges.
    Even where we share common interests, Egypt has often 
rejected cooperation. For example, Egypt has spurned U.S. 
offers to train its military in the modern counterterrorism 
tactics essential to defeating groups like ISIS.
    It is becoming harder to argue that the U.S. is getting a 
good return on its investment in Egypt? What can the U.S. do to 
break out of this unsatisfactory cycle?
    There are two steps that Congress could take that would 
advance the vital U.S. interests in Egypt's long-term stability 
while ensuring a better return on investment.
    For Washington to send a clear message, U.S. military aid, 
which the Egyptian leadership values greatly, will have to be 
put on or off the table.
    First, Congress, should keep human rights conditions on 
military assistance in the fiscal year 2019 appropriations 
bill. The Trump administration made use of this conditionality 
last August when it suspended $195 million in FMF funding in 
part over human rights concerns.
    As a result, after years of stalling, Egypt finally 
arranged for a retrial in an infamous 2013 case in which 17 
Americans received prison sentences on outrageous political 
charges.
    Egypt also reportedly forced North Korea to reduce the size 
the of its Embassy in Cairo, Pyongyang's largest in the region. 
While neither step merits releasing the $195 million, they 
suggest that U.S. pressure is indeed having some effect.
    In fiscal year 2019, Congress should continue such 
conditionally and seek an end to Sisi's crackdown on civil 
society, the release of political prisoners, and access for 
U.S. military officials to the Sinai for end use monitoring.
    These steps would both open up the political space that is 
so important to Egypt's long-term stability and show that Sisi 
is willing to address legitimate U.S. concerns.
    My second recommendation is that Congress should reduce 
annual military assistance to $1 billion as proposed in the 
Senate appropriations committee markup.
    Egypt views military aid as an entitlement and expects that 
the U.S. will ultimately back down from any threat or attempt 
to use it as leverage. This perception undermines U.S. 
influence.
    Consequently, reducing Egypt's military aid would send an 
unmistakable signal that we expect more in return for our 
support. The risks of imposing human rights conditionality and 
reducing military aid are often exaggerated.
    The Israeli-Egyptian peace treaty is no longer dependent on 
U.S. aid or mediation. Egypt will not abandon the U.S. in favor 
of Russia or China and cutting this aid will not degrade the 
capabilities of an Egyptian military that needs better 
training, not more weapons.
    If these steps are taken, the U.S. will be in a stronger 
position to persuade Sisi's government to open up political 
space, reform Egypt's military doctrine, and address 
radicalization.
    At the very least, cutting Egypt's military aid will be a 
service to the American taxpayer who has seen little return on 
their investment in the present Egyptian government.
    In closing, the U.S.-Egyptian relationship is no longer 
working. I hope Congress will take this chance to recalibrate 
it for a new era.
    Thank you. I look forward to your questions.
    [The prepared statement of Mr. Miller follows:]
    
    [GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
                              ----------                              

    Ms. Ros-Lehtinen. Excellent recommendations from all of 
you.
    Mr. Genser, you have represented some of the most well-
known human rights activists and political prisoners in recent 
years, securing their freedom, their release, from a wide 
variety of countries.
    Please compare the case of your clients in Egypt to those 
in other countries and are there certain aspects of Egypt's 
legal system and approach to human rights that stand out and 
what are the specific challenges that the accused face in 
Egypt?
    Mr. Genser. Thank you, Chairman Ros-Lehtinen. You have been 
an extraordinary partner for so many victims of human rights 
abuses around the world and especially in support of families 
of political prisoners, and it's going to be very sad to see 
you depart the Congress at the end of this term. We'll all miss 
you.
    So with respect to the situation in Egypt and political 
prisoners, I think it's unmistakable that when you have tens of 
thousands of people detained at any one time, the reality is 
that most of them are being detained not even on trumped up 
charges but on no charges at all, and you can't have due 
process of law when you have tens of thousands being detained 
at once, let alone probable cause for arresting these kinds of 
people.
    What my clients, Ola al-Qaradawi and Hossam Khalaf, have 
suffered these USLPRs is emblematic of the problem. You know, 
they were accused in media of being associated with the Muslim 
Brotherhood, although they were, of course, cleared by 
President Trump for their green cards.
    So I would not find that to be a very credible accusation, 
and they've been held on renewable detention orders for a year 
and counting. Brought before judges that, you know, first heard 
15-day renewals. Now it's every 45 days they appear.
    They have had no access to their family for more than a 
year. Neither of them have been able to have access to their 
families, and even when they're brought to court, they aren't 
even able to access their counsel.
    They're in a glass aquarium all the way across the 
courtroom and unable to even talk to their own lawyers, and 
Egypt has presented no evidence of any kind that they have 
committed any crimes, let alone that they would be prosecuted 
for them and they are in this permanent state of renewable 
detention.
    This is a phenomena we see wide across Egypt, not just 
against U.S. legal permanent residents or American citizens but 
against ordinary Egyptians and real or imagined political 
opponents of the regime.
    You also have, of course, the reinstitution of the 
emergency law which now has provided these alternate courts 
that don't have basic due process protections and no right of 
appeal and this is, obviously, a very, very dangerous trend 
where in the name of counter terrorism operations people are 
being sent to these kinds of court systems that have built-in 
endemic and systematic problems, and ultimately, the judiciary 
in Egypt, of course, is not independent or impartial as well.
    So I think that this would--the situation in Egypt is very 
analogous to the kind of situations that I have worked with 
around the world in lots of different authoritarian contexts, 
whether it be, you know, in Iran or a Cuba or Venezuela, you 
know, or any one of a number of African countries that I've 
worked in--the Gambia, you name it.
    And I think the reality is that this is an authoritarian 
ruler and President Sisi, who is determined to have his way not 
only electorally but in terms of ensuring that there is no 
legitimate peaceful dissent that has any power of any kind to 
be able to challenge his rule, and I think that we see that 
playing out in the form of the number of political prisoners.
    I think that in any country around the world where you see 
political prisoners that should be for everybody around the 
world, a sign that this is a country that is moving in the 
wrong direction rather than the--rather than the right 
direction and Egypt, having tens of thousands or more political 
prisoners, not even all of whom have been documented, and the 
way that they're treated in prison is very emblematic of the 
repression of the Sisi regime.
    Ms. Ros-Lehtinen. Thank you very much, Mr. Genser. Thank 
you for your defense of political dissidents and we wish you 
much success in your human rights work.
    Thank you very much. I will ask Mr. Donovan to take over 
for me, if he could, while I have some constituent appointments 
in the side room, and with that I am pleased to yield to the 
ranking member, my good friend, Mr. Deutch, of Florida.
    Mr. Deutch. Thank you, Madam Chairman.
    Egypt has seen a multitude of changes since 2011's uprising 
that led to a revolution. But looking at Egypt in its current 
state, I think the message that a lot of us have here is our 
concern about democracy.
    And the recent Egyptian election indicator is that they 
weren't free and fair. Minorities and opposing voices are being 
repressed and Egypt's press and media are more and more 
restricted.
    Mr. Miller, you proposed retaining human rights conditions 
on our assistance. We've had those conditions now in place over 
the past several years. To what extent have they worked or what 
more can be done to ensure that they do?
    Mr. Miller. Thank you, Congressman, and I think that they 
have, as I mentioned in my testimony, produced some results. We 
have seen that--we have seen that--there's finally movement in 
the 2013 NGO trial in which 17 Americans, 43 defendants 
overall, were charged and sentenced to up to 5 years of jail.
    We've also seen, according to the Egyptians, that they 
forced the North Koreans to reduce the size of their presence 
within Cairo. In prior years, conditionality played an 
important role in getting the release of political prisoners--
Aya Hijazi, Mohamed Soltan, other figures. It does produce 
results.
    Now, they may seem small bore, but I think there's a reason 
for that. Part of the challenge is pressure only works if the 
other side believes that you're going to stick by it--that 
you're going to adhere to the conditions you laid out, and, 
unfortunately, over the past 40 years, the U.S. has tended to 
capitulate after applying pressure on the Egyptians.
    And that's part of why I think coupling the conditionality 
with a reduction in assistance overall to send a message that 
the $1.3 billion isn't sacrosanct, that is not simply enough to 
fulfil these conditions but we want a genuinely different 
approach, will translate into better results.
    There really hasn't been a good test of conditionality 
partly because we haven't stuck firm. If we stick firm in the 
future, I am fairly confident that we are going to get better 
results as well.
    Mr. Deutch. Thank you.
    Dr. Dunne, so other than reducing the amount of assistance, 
what's the best way to message--the most effective way to 
message on human rights to the Sisi government and has the 
administration done it? What more can the administration do to 
send that very clear message?
    Ms. Dunne. Thank you, Congressman.
    Well, two things--I would say what the current 
administration has done that I think is effective is establish 
some specific benchmarks. It seems to be that when they 
withheld the $195 million last summer, they established some 
specific benchmarks that they were looking for and that is I 
think the Obama administration didn't do that as clearly.
    They withheld some assistance after the military coup but 
it wasn't really clear and then they ended up releasing it 
without gaining anything. So that wasn't very effective.
    What the Obama administration did that I think was, in a 
way, better though was the public messaging. I haven't seen as 
much. I've seen a little bit. There started to be a little bit 
of public messaging from the Trump administration about 
concerns.
    There was a little bit about the concerns about how the 
elections were run and so forth. But particularly, I think, as 
we move forward into a situation in which President Sisi I 
think is going to be looking around to see is it all right with 
everyone if he stays in office indefinitely and so forth--is 
there going to be any reaction to that internationally.
    You know, there could be, I think, better public messaging 
and clearer and more consistent private messaging about these 
issues as well as conditions on aid--I mean, just discussing 
human rights and democracy issues.
    Mr. Deutch. So you talked about benchmarks being one way to 
effectively move the needle on this. But what should that 
public messaging look like and who should it be coming from?
    Ms. Dunne. The public messaging that is most heard in 
Egypt, I think, is from either very senior members of the U.S. 
administration, such as the President and Cabinet members, or 
from Members of Congress.
    Whether they speak here or whether they speak when they 
visit Egypt and so forth, I mean, that's the--it has to be a 
news maker, so to speak, in order to get across because I think 
it's very important that not only the Egyptian government hears 
the message.
    Of course, Egyptian government figures can hear the message 
privately. But when it's made public, that indicates, you know, 
to the Egyptian public and so forth that these issues are 
being--are being raised with their government and I think it's 
important to get that across.
    Mr. Deutch. Great. Thank you.
    I yield back, Mr. Chairman.
    Mr. Donovan [presiding]. The gentleman yields.
    The Chair recognizes himself, since I am the only one left 
up here.
    Let me just ask all of you one question and maybe everybody 
could contribute or give me their thoughts. It seems that in 
order to try to correct bad behavior in the area of human 
rights, we withhold military aid.
    The Egyptians probably, I suppose, say then we still have 
to protect our own nation--we'll have to go elsewhere for that 
military aid. And where do they go? North Korea.
    So we tell them, you can't go to North Korea or we are 
going to withhold more military aid. So it seems like we are 
squeezing a balloon a little bit, to me.
    So could you guys give me your opinion on how we could be 
more successful to get them to crackdown on the violations on 
human rights and at the same time not let them go to an area 
where they're violating international laws and going somewhere 
else for the aid that they need to protect their own nation 
from their enemies?
    Mr. Miller. Thank you, Congressman. I think that's very 
much a legitimate concern and we have to be attentive to the 
second order effects of the policy positions that we take.
    I think it's worth emphasizing, though, that the $1.3 
billion Egypt receives is well in excess of what they actually 
need in order to combat their problems.
    As I said before, it's really not an equipment problem. I 
spoke with many U.S. senior military officials and they told me 
that the Egyptians are obsessed with magic boxes.
    They think there's a technological solution to everything 
that will deal with IEDs, that will deal with insurgents, when 
in actuality it's a question of how they use the equipment.
    And, unfortunately, the Egyptians haven't been receptive 
when the U.S. has offered training in counter terrorism 
doctrine and tactics.
    Regarding the assistance level where they're going to go, 
what they want from North Korea, primarily, is missile parts 
and the reason they want that is because no one else will sell 
it to them.
    If they don't get equipment from the United States, they're 
as equally likely to go to France or the U.K. as they are to go 
to Russia or China.
    Now, there may be employment consequences for that and 
there's a concern about whether we are appropriately 
subsidizing U.S. defense contractors.
    But in my--based on my personal experience, if we took the 
money we took away from Egypt and gave it to another country, 
they're going to order a lot of the same stuff. So there 
actually isn't going to be a net impact on how much money is 
going to subsidize the American arms industry.
    Mr. Donovan. Anyone else care to comment?
    Yes, Doctor.
    Mr. Tadros. I think the issue is often framed and discussed 
in terms of the money itself and the value of the money has, 
obviously, diminished over the years.
    The $1.3 billion, and it was even much more--$2 billion at 
the time that the peace treaty with Israel was signed--is, 
obviously not the same as what it buys today.
    But more important to Egypt is the spare parts that they 
need for the weapons that they have been buying for 30, 40 
years from the United States, and also the very fact of a 
relationship with the United States.
    It matters to be an ally of the world's superpower in terms 
of prestige in the region, in terms of many things for them, 
getting economic aid from the World Bank and the IMF.
    So I think the issue is not just the money there but 
there's also a lot of things involved. In terms of actually 
impacting their policies, I think it depends on how life and 
death issue the policy is for them.
    The question of whether to--how to deal with the Muslim 
Brotherhood, for example, is viewed by the regime as a life and 
death issue. They did conduct a military coup.
    They removed these guys and put them to prison. You don't 
conduct a coup and then go home and relax. You either rule or 
you're jailed or die for it.
    So there are questions that, for them, no matter whether 
it's $1.3 billion or $10 billion, he's not going to put his 
life in danger for that amount of money.
    But there are many other issues where we can have a serious 
discussion with the Egyptian regime on things that don't 
threaten the regime's continuation--questions related to media, 
to bloggers.
    Dr. Dunne mentioned bloggers who are not even a threat to 
the regime or not part of any threat that there is for them. 
The question of the conditions of Christians in the country and 
many other issues that you can have an impact and leverage on 
because they are not life-threatening for them.
    Mr. Donovan. Dr. Dunne.
    Ms. Dunne. In my experience, Congressman, I don't see 
President Sisi as resorting to other countries like North Korea 
or even Russia because the United States has put pressure on 
him.
    The Egyptian-North Korean relationship goes very, very far 
back, and what I have seen is that President Sisi wants to 
diversify and sort of have all of the above--have all the 
relationships with all these different players as much as he 
can.
    Now, the only question, I think, in terms of the United 
States is that is that all right with us. So, obviously, it 
wasn't all right with the United States for Egypt to have the 
kind of security relationship it has with the United States and 
also be buying weapons illicitly from North Korea.
    Another issue that arose recently was the Russian 
government asked for access to Egyptian air bases, you know, 
and so that's a question--is that all right for the United 
States for--you know, I think that President Sisi will have as 
many--as many relationships as he can and it's not a question 
of he's taking one because he isn't getting it from someone 
else.
    He just wants to diversify his relationships as much as 
possible and then we will have to decide if we are going to 
have a close security relationship--how much of that is okay 
with us and how much is not.
    Mr. Donovan. I thank you all for your comments.
    The Chair now recognizes Mr. Schneider.
    Mr. Schneider. Thank you and, again, thank you to the 
witnesses for joining us today.
    Normally, I try to go from the general to the specific but 
I think I am going to flip that on its head today and start 
with a specific and, if there's time, talk more general.
    One of my particular concerns is the status of the LGBTQ 
community in Egypt. Last fall, as you may know, dozens of LGBTQ 
Egyptians and their allies were arrested and detained after a 
young Egyptian flew a rainbow flag at a concert in Cairo.
    And prior to that there have been other mass arrests dating 
back all the way to the Queen Boat incident more than 15 years 
ago.
    So, Dr. Dunne, I will start with you, but open the question 
to anyone. Essentially, three questions--any update on the 
situation for the LGBTQ community in Egypt and has the recent 
crackdown ended or is it still going.
    The second question would be are there ways that the broad 
international community can have an impact on the environment 
for the LGBTQ people within Egypt, and the third piece is I 
would love your thoughts on the U.S. Government's response to 
these human rights abuses in Egypt.
    Ms. Dunne. Thank you, Congressman.
    Yes. Sadly, I mean, this has been a long-running story in 
Egypt--you know, targeting, harassment of the LGBTQ community 
and it was--has been very much revived in the last couple of 
years and, unfortunately, it really has happened mostly under 
military-dominated governments and so--in Egypt specifically.
    What I have seen, Congressman, is that it--there are times, 
and it's hard to explain why the government or actors--security 
actors within the government will decide to go after to target, 
to beat members of this community and to prosecute them, 
humiliate them publicly, and so forth.
    What I have seen is that will tend to--that kind of 
harassment will tend to abate when there is international 
attention and also when Egyptians themselves start speaking up, 
which happened in a case a couple of years go where Egyptians 
themselves started to object.
    But in the case that you mentioned with the people who were 
arrested at the concert, I believe that not all of them have 
been released yet--that some of them have been stuck in 
detention, because there wasn't quite as much attention to that 
case from the U.S. administration as there had been to some 
previous cases.
    There was a bathhouse case, the Queen Boat case you 
mentioned from many years ago. So it's really important to 
speak about these things publicly and for Egyptian officials to 
hear about them from Members of Congress as well as the 
administration.
    Mr. Schneider. Great.
    Mr. Tadros. Mr. Miller.
    Mr. Tadros. I think there's the reality of the nature of 
society there. It's a winning social issue for the government.
    When they engage in such practices they are intended to 
shore public support for the government so that the government 
is defending values of the Egyptian people and tie the 
community and the Western attention to it to Western attempts 
to weaken Egypt and conspire against it.
    So I think the regime periodically engages in such 
practices when it serves the intention of shoring up local 
support for its policies.
    Mr. Schneider. Mr. Miller.
    Mr. Miller. I think this speaks to an important point. 
There's an assumption that the secular ex-general must be more 
progressive or more socially tolerant than the former Islamist 
President, and the reality--President Sisi's policies are often 
no better and, in some cases, worse than former President 
Morsi's on social indicators.
    LGBTQ rights is one example--also, blasphemy cases. There 
have been an increase in blasphemy cases under President Sisi 
as compared to President Morsi, which has a disproportionate 
impact on Coptic Christians, for instance.
    While most of the cases involve Muslims, most of the 
defendants who go to prison are Christians.
    So in many respects, partly because Sisi is not labelled as 
an Islamist, he feels freer to cater to the conservative 
impulses in Egypt that Mr. Tadros mentioned.
    Mr. Schneider. Great. Thank you.
    And with the few seconds I have left, the big question, 
more general, more than half of Egypt's population is under the 
age of 25--actually, 24.
    The population is expected to grow to 130 million in the 
next decade. They're trying to bring that number down. But 
demographics has to play into the economic impact and also 
broader human rights expectations of both these young people 
and it could be a challenge but it could also be an 
opportunity.
    So if I could have the indulgence of another minute I would 
love your thoughts on that as well.
    Ms. Dunne. Yes, Congressman. This is the mega issue for 
Egypt is its rapidly growing and youthful population. 
Population growth in Egypt had been slowly declining but now 
it's turned around and it's been growing rapidly again.
    The labor force is growing rapidly and even with an 
economic growth statistic, a GDP growth right now of I think 
5.4 percent, that sounds good.
    To us in the United States, that sounds excellent. But with 
the population growing with, you know, more than 2 million 
Egyptians joining the population every year, that doesn't go 
very far.
    So, you know, there's a crying need to address the 
population growth issue itself. Egypt has done some things but 
not nearly as much as some others, even others in the Middle 
East region have done about that.
    And then there's a great need to generate jobs and that is 
another problem of the economic program of President Sisi. 
While he has instituted important austerity measures, there's 
been much less in terms of facilitating private sector growth, 
the growth of small and medium enterprises that really could 
generate a lot of jobs.
    It remains an economy and even increasingly is an economy 
in which the playing field is heavily tilted toward the 
military in which the military has really been gobbling up a 
lot of the state contracts and so forth and therefore, you 
know, it's a very worrisome issue.
    Just the last thing I would say is about water. Egypt is 
going to be, because of its population growth, facing a very 
serious water shortage within not too many years.
    Mr. Schneider. Great.
    Thank you. I am out of time. Thanks for the extra time.
    Mr. Donovan. Did you want to comment, sir?
    Mr. Schneider. Oh, thank you.
    Mr. Tadros. If I may. I think the demographic challenge is, 
obviously, there. The economic part of it is important. So is 
the educational part.
    Egyptian education does not prepare this new generation for 
the kind of jobs that the new world needs from them. I think 
there a need to look into U.S. efforts to support educational 
reform to Egypt both in terms of addressing radical ideas that 
exist in the textbooks and the kind of anti-tolerance messages 
that are there as well as looking at the educational system as 
a means to help the country address its problems.
    The water resource issue is very important as well. The 
conflict--the growing conflict between Egypt and Ethiopia has 
the potential of becoming an actual war and I think it's in the 
best interests of the United States to deal with this issue 
before it truly reaches an explosion point.
    Mr. Donovan. I thank you.
    The Chair now recognizes the ranking member.
    Mr. Deutch. Thank you, Mr. Chairman.
    Just before we wrap up, I wanted to ask a couple questions 
about the Egyptian military operations, particularly in Sinai. 
They have sustained significant losses.
    Can someone speak to the U.S. counterterrorism support for 
the Egyptian forces? Mr. Miller, can you speak to that?
    Mr. Miller. I would be happy to, Congressman.
    There is ongoing support and it's largely of two 
dimensions. One is intelligence support. We provide them with 
information on the location and identity of extremists who are 
operating in the Sinai and that helps them to intercept them.
    But the major problem, as I said before, was the training 
dimension. Egypt employs a conventional obsolete approach to 
asymmetric threats that isn't appropriate to dealing with 
insurgents, that isn't appropriate to dealing with terrorists, 
and repeatedly the United States, going back to the late Bush 
administration--the George W. Bush administration--has tried to 
have this conversation with the Egyptian military--the need to 
reform how they approach these threats, to focus on building 
allegiances with local populations, understanding that the 
intelligence they provide is the key to success and paying 
attention to how they're impacted by what's taking place.
    The impact has been tremendous. You have 3,000 additional 
homes destroyed during just this operation. You have over 3,000 
families who have been forcibly relocated. That's not the way 
you win a counterinsurgency campaign.
    But I think that the U.S. Government would be happy and the 
military will be happy to provide additional training in those 
areas. Unfortunately, every time we've offered it the Egyptians 
normally say, well, you guys, you failed.
    You failed in Afghanistan. You failed in Iraq. You have no 
idea what you're doing. Just give us the weapons and let us do 
the job our way.
    And while we understand their frustration and we understand 
that we are not perfect--we made mistakes--we wish they would 
make use of our mistakes and incorporate them into their 
approach, moving forward.
    But until they're willing to accept that type of training, 
to have a dialogue on how they approach these threats, 
unfortunately, I don't think they're going to achieve 
sustainable success against these militants.
    Mr. Deutch. And so just to follow up, given the focus on 
military strikes as the response--the sole response--are there 
efforts to address the drivers of the extremism--of the 
ideology in Sinai?
    Mr. Miller. We tried to have those conversations with 
Egyptian officials, and Mr. Tadros was talking about the need 
to have these conversations.
    In my experience, not just in the Obama administration but 
in the first months of the Trump administration, the Egyptians 
wanted to treat the relationship like a Chinese menu. They 
wanted to discuss what was important to them and they wanted to 
ignore what was important to us, and often that meant these 
types of issues. They ignore the connection between 
radicalization--between imprisonment, between torture, and 
radicalization and they say, we know how to deal with it.
    I remember being in a meeting with President Sisi where he 
said, there are two ways to deal with terrorists--you either 
lock them up or you kill them.
    Obviously, that leaves something to be desired, according 
to modern understandings of how you deal with terrorists and 
insurgents, and while that may be emotionally appealing at a 
certain level, it's unlikely to be efficacious.
    It's unlikely to produce those results, and that's one of 
the reasons why I think we need to reset the relationship. 
Under the current construct, we are not able to have the 
conversations we need with the Egyptians because we are 
overwhelmingly focused on what equipment they want and what 
equipment they're going to receive rather than having a genuine 
strategic discussion about our goals and their goals and how we 
can better work together.
    Mr. Deutch. Mr. Tadros or Dr. Dunne, do either of you have 
comments?
    Mr. Tadros. I think for--I mean, Egypt has been fighting 
the group in Sinai--the Islamic State affiliate--for 6 years 
now.
    All previous military campaigns--there have been large 
military campaigns--they have all failed. The Egyptian regime 
has announced numbers of about 3,000 or more that they've 
killed of these terrorists and arrested another 16,000 of 
terrorists in Sinai while all estimates of the actual number of 
fighters of the Islamic State ranges from 700 to 1,000.
    So they're, obviously, not ending the threat there. They're 
killing and arresting the wrong people and not ending the 
threat. The last military campaign that was started in February 
shows much more positive signs of success.
    For the first time, they focused on the communications of 
the Islamic State, which has both diminished the ability of 
them to carry coordinated attacks because they operate more as 
independent cells that coordinate then large attacks but each 
is focused on its own area of operation--as well as limited 
their ability to use media and to talk about their operations 
and build support.
    I think also a very important development is the fact that 
this operation comes after the major massacre of more than 300 
peaceful Moslems praying in their mosque. The brutality of the 
Islamic State--the fact that they targeted normal Moslems--not 
the security forces, not the Christians, but just regular guys.
    I think this also helped build popular support in the Sinai 
for the military to finally deal with that situation. So while 
the potential for a return of major attacks by the Islamic 
State remains, I think we've seen more positive signs in the 
last couple of months.
    Ms. Dunne. Just briefly, Congressman, I want to add that 
while--you know, we will see what the results of the most 
recent military campaign in the Sinai were, you know, perhaps 
there--we will see a diminution of the militancy in the Sinai. 
It's really too early to say yet.
    But what really concerns me is what is going on inside of 
Egyptian prisons. When we see tens of thousands of people, 
almost all of them young people--the vast majority young men--
and we hear about the kinds of conditions--the torture, the 
brutality, the solitary confinement, the lack of medical 
treatment, and that they're often exposed in prison to 
militants from ISIS and other extremist groups who seem to have 
free rein to talk to people and recruit and so forth, it really 
makes me worried.
    I mean, that's another reason to pay a lot of attention to 
the human rights problems in Egypt--first of all, from the 
point of view of principle but also out of concern that this is 
a radicalization factory--that it will be producing militants, 
you know, for many years to come, I fear.
    Mr. Donovan. The Chair now recognizes the gentleman from 
California, Mr. Rohrabacher.
    Mr. Rohrabacher. Thank you very much. I apologize to--I 
missed most of hearing today. As usual, you're scheduled for at 
least two or three really important things at exactly the same 
time.
    Any discussion of Egypt is an important thing. It is vital 
because if the Egyptian government would happen to come under 
the domination of a radical Islamist, the entire Middle East 
would be destabilized and there would be war. There would be 
war and millions of people killed.
    I remember, and I understand when we can look at--with a 
very, how do you say, principled look and say, this is the 
standard we have. Even if--and no matter what's going on in a 
country they can't do this.
    But I think that when we look at Egypt today, we better 
calculate what the danger is and not--I mean, I remember when 
the Shah of Iran was overthrown. I remember that, and I 
remember how we basically threw him under the bus, as they say, 
and what did we get for that?
    What did we get for demanding that the Shah restrained 
himself in the street demonstrations and these organizations 
efforts to get rid of him?
    Well, what we got was a brutal mullah dictatorship that 
even today, as we speak, is murdering its own people and trying 
to suppress those people's aspirations.
    And let us note for the record I hope that if anything 
comes out of this hearing it's that we support the people of 
Iran who are trying to overthrow the mullah dictatorship.
    And with that said, I would hope that if they manage to do 
that and they manage to set up an interim government that we 
don't all of a sudden start having such a high standard that we 
are judging them by that another mullah regime can beat them 
down and take power.
    We saw it with Qaddafi. Qaddafi was a bad guy. Qaddafi made 
some deals with us and with the Russians to get rid of his 
nuclear weapons. He made a deal with us to make sure that the 
radical Islamic terrorism would not be used in Libya.
    And guess what? We decided to go with the pure Democrats 
and what do we have now? We have terrorists who were in control 
of about a third to a half of Libya and total chaos.
    Saddam Hussein--Saddam Hussein was a bad guy, and I don't 
think it was--I certainly believe that we should have tried to 
help the people in Iraq at the time but we ended up sending 
U.S. soldiers down there.
    When the United States is trying to make up its mind what 
to do, we better do it rationally and we shouldn't be doing it 
based on some--on an analysis that is not in firm ground of 
reality.
    So with that said, just what you just mentioned about 
President el-Sisi, who I think is one of the great champions of 
stability in that part of the world and without him I believe 
that there would be many more people dying.
    I believe that the--especially if as Morsi would have 
continued the direction he was going, just the same direction 
Erdogan is going today, I think that leads to death, 
instability, and it leads to far less freedom in the long run.
    Yes, someone who is a terrorist, yes, it doesn't bother me 
that he wants to either string him up or whatever he wants to 
do with him. Quite frankly, it is a good thing when a terrorist 
is put out of commission, whichever way they figure out how to 
do that.
    Now, I realize that I've spoken too long now, but I should 
give you all a chance to refute everything I just said, which 
is fine--which is part of the process here.
    But let me just say we better be darn realistic when we are 
dealing with these--with these challenges because if we end up 
with more people dying and more tyranny in the long run because 
we've held someone up to a standard that is not appropriate for 
that particular moment, shame on us.
    And by the way, I just--I will finish up with saying much 
of the criticism I've heard of el-Sisi and is regime has been 
just that. It's been criticism based on a standard that should 
not be used at this moment.
    So with that said, go right ahead and--I know you have some 
disagreement with me so but go right ahead and do so. Whoever--
--
    Ms. Dunne. Thank you, Congressman Rohrabacher.
    You know, I have to say I really share your concerns that 
if Egypt would come under the domination of a radical Islamist 
regime or leader that it would destabilize the entire region. I 
agree with you entirely.
    My worry is that the degree of repression under President 
Sisi could be taking the country in exactly that direction--you 
know, that there is really--at this point there are not--the 
normal channels through which, you know, peaceful differences 
of opinion through formal politics, electoral competition in 
the Parliament, through a free media, through civil society 
organizations and so forth--frankly, things that Egypt had to a 
greater degree under President Mubarak in the past than they 
have now, you know, and even then Egyptians, you know, 
eventually revolted against Mubarak--that without these 
outlets, I really fear that there could be a breakout of 
violent radical, you know, opposition to President Sisi, 
particularly, you know, if he tries to remain in officer more 
or less indefinitely.
    So, you know, that is my concern. I don't think anyone here 
is suggesting that the United States should do anything like 
intervene in Egypt or the way it did in Iraq or even 
participate in an intervention the way it did in Libya.
    But to somehow use what influence we have to try to 
persuade the Egyptian leadership to open up those channels for 
the peaceful expression of dissent and for peaceful political 
competition so that Egyptians can find their way forward 
without future destabilization and an increase in violence.
    Mr. Rohrabacher. Thank you very much.
    Mr. Donovan. Seeing that there's no other members seeking 
recognition, I thank the witnesses for sharing your expertise 
and your opinions with us.
    This committee stands adjourned.
    [Whereupon, at 4:09 p.m., the committee was adjourned.]

                                     

                                     

                            A P P E N D I X

                              ----------                              


         	Material Submitted for the Record
         
         
[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

             


                                 <all>
</pre></body></html>
